No. ________________

In the Supreme Court of the United States

TEODORO REYNOSA-DENOVA, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Teodoro Reynosa-Denova, by and through his undersigned attorney, and pursuant to Rule 39.1, Supreme Court Rules, and Title 18, United
States Code, § 3006A(d)(7), respectfully moves this Honorable Court for leave
to proceed in forma pauperis, and for leave to file the attached Petition for Writ
of Certiorari to the United States Court of Appeals for the Fifth Circuit without
prepayment of fees. Petitioner was represented by appointed counsel under the
Criminal Justice Act of 1964, as amended, in the district court and the court of
appeals. Leave to proceed in forma pauperis was never sought in any other
court.

Respectfully submitted.
s/ Laura G. Greenberg
LAURA G. GREENBERG
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner
DATED: February 8, 2021

